                    September 21, 1999

                    JAMES GRUBIAK
                    VICE PRESIDENT, INTERNATIONAL BUSINESS UNIT

                    SUBJECT:	 Review of International Travel Process
                              (Report Number RG-MA-99-007)

                    We have completed the first phase of a two-phase review of
                    Postal Service international travel. We initiated this review
                    to determine whether international travel was authorized in
                    accordance with Postal Service travel regulations. This
                    report presents the results of our review. Appendix A of
                    this report presents a list of Postal Service organizations
                    requesting fiscal year 1999 international travel. Appendix B
                    presents summary information on the cost of international
                    travel for fiscal years 1995 through 1999. During the
                    second phase of our review, we will examine whether
                    international travel expenses incurred during fiscal year
                    1999 were allowable, reasonable, and accurately reported.

Results in Brief	   Ninety-eight percent (567 of 577) of the international travel
                    requests submitted, to the Vice President, International
                    Business Unit, from September 12, 1998 through
                    May 21, 1999 were incomplete. For example, 94 percent
                    did not include supporting documents that initiated the trip
                    and 88 percent of the requests did not include estimated
                    travel costs. As a result, approving officials and the Vice
                    President, International Business Unit approved
                    international travel without complete information on whether
                    the travel was cost-effective or directly related to Postal
                    Service business. While we did not calculate the cost of the
                    travel associated with the 577 travel requests, we noted that
                    international travel costs were over $2 million for the 1,111
                    international travel vouchers processed between
                    September 12, 1998 and June 18, 1999. We recommended
                    that the Vice President, International Business Unit ensure
                    that international travel requests include all information
                    required by Postal Service Handbook F-15 before deciding
                    whether to approve the travel request. The Vice President,
International Travel Process	                                                                          RG-MA-99-007



                                    International Business Unit, concurred with our suggestion
                                    and the actions taken or planned meet the intent of our
                                    suggestion.

Background                          Title 39, section 410 of the United States Code, gives the
                                    Postal Service the authority to establish travel policy. Postal
                                    Service travel policies and procedures are outlined in Postal
                                    Service Handbook F-15, “Travel and Relocation,” dated
                                    August 1997.

                                    Appendix C, Handbook F-15, states that the postmaster
                                    general has delegated travel approval authority to certain
                                    management positions within the Postal Service.
                                    Management positions which have been delegated this
                                    authority include:

                                    •	 Officers
                                    •	 Postal Career Executive Service (PCES) executives
                                    •	 Non-PCES managers who are direct reports to Vice
                                       Presidents or other PCES executives
                                    •	 Plant Managers
                                    •	 Postmasters of cost ascertainment grouping1 A – G post
                                       offices.

                                    Handbook F-15 states that Postal Service officers2 may
                                    approve international travel to Canada and Mexico.
                                    However, the Vice President, International Business Unit
                                    approves all other international travel. An exception to this
                                    requirement is that the Chief Postal Inspector approves
                                    international travel for their respective staff on official
                                    audits/criminal investigations. In addition, the Inspector
                                    General approves international travel for staff of the OIG.

                                    To obtain approval for international travel, the traveler had
                                    to write a letter to the Vice President, International Business
                                    Unit requesting travel approval. The letter was first
                                    reviewed and approved by an officer within the traveler’s
                                    organization, then forwarded to the Vice President,
                                    International Business Unit. As part of the review process,
                                    approving officials must make certain that the travel is
                                    necessary and directly related to Postal Service business.

                                    After international travel is completed, the appropriate
                                    approving official reviews the travel vouchers and certifies
                                    that the transportation and expenses are the most
                                    advantageous to the Postal Service. The vouchers are then
1
    Cost ascertainment grouping is a method that classifies post offices by volume of revenue generated.
2
    Top management positions within the Postal Service. As of September 1998, there were 45 officers.

                                                           2
                                                Restricted Information
International Travel Process                                                        RG-MA-99-007



                               submitted to the San Mateo Accounting Service Center for
                               processing and payment. Accounting Service Center and
                               International Business Unit officials advised us that the
                               Accounting Service Center will not process international
                               travel vouchers that do not have a copy of the approval
                               letter signed by the Vice President, International Business
                               Unit.

Objective, Scope, and          We conducted our review from July through August 1999 in
Methodology                    accordance with the President’s Council on Integrity and
                               Efficiency, Quality Standards for Inspections. Our overall
                               objective was to determine whether International travel was
                               properly authorized and internal controls related to our
                               objective was adequate. Specifically, we determined
                               whether international travel requests were approved after a
                               determination that they were cost effective and related to
                               Postal Service business.

                               To accomplish our objectives, we reviewed 577 requests for
                               international travel that were submitted to the International
                               Business Unit from September 12, 1998 through May 21,
                               1999. We also used the 577 requests to compile
                               information on the frequency of travel for various Postal
                               Service organizations and travel destinations (See
                               Appendix A).

                               We interviewed personnel from the International Business
                               Unit and the San Mateo Accounting Service Center. The
                               Accounting Service Center personnel provided us with
                               computer-processed data on international travel costs for
                               fiscal year 1995 through June 18, 1999 (See Appendix B).
                               We used the computer-processed data for informational
                               purposes only, and did not assess the reliability of the data.

                               We also reviewed the adequacy of Postal Service internal
                               controls over international travel. Specifically, we reviewed
                               the internal controls the Postal Service used to ensure
                               international travel was properly authorized.

Prior Audit Coverage           United States Postal Service, “International Business
                               Unit Study of Business Practices,” March 1998. In
                               February 1998, the Postal Service established a team to
                               review the business practices of the International Business
                               Unit. Their review focused on various activities within the
                               management of the International Business Unit, including
                               international travel. Their report concluded that “while a
                               majority of [International Business Unit] travel vouchers

                                                   3
                                        Restricted Information
International Travel Process                                                                          RG-MA-99-007



                                  were submitted within a reasonable time and were accurate,
                                  others were not.” In addition, the team found that some
                                  International Business Unit employees were circumventing
                                  Postal Service travel policies3 in order to fly business class.
                                  Additionally, the team found instances of excessive hotel
                                  costs, questionable travel, and questionable items claimed
                                  on travel vouchers. The report recommended that the
                                  International Business Unit tighten travel controls.
                                  Specifically, they recommended that the International
                                  Business Unit (1) require employees to adhere to the 10-
                                  hour rule regarding business class travel, (2) scrutinize the
                                  number of employees traveling, and (3) obtain prior
                                  approval before excessive costs are incurred.

Incomplete Travel                 Ninety-eight percent (567 of 577) of the international travel
Requests                          requests that were submitted to the Vice President,
                                  International Business Unit, from September 12, 1998
                                  through May 21, 1999 for the first three-quarters of were
                                  incomplete. For example, 94 percent did not include
                                  supporting documents that initiated the trip and 88 percent
                                  of the requests did not include an estimate of travel costs.
                                  As a result, approving officials and the Vice President,
                                  International Business Unit approved international travel
                                  without complete information on whether the travel was
                                  cost-effective or directly related to Postal Service business.

                                  Handbook F-15 states that the international travel request
                                  must include:

                                  •	 A copy of the supporting documents that initiated the
                                     trip, such as an invitation or announcement;
                                  •	 A statement of justification;
                                  •	 The expected benefit to the Postal Service;
                                  •	 An estimate of cost; and
                                  •	 A proposed travel schedule.

Supporting                        Ninety-four percent (543 of 577) of the international travel
Documentation                     requests approved by the Vice President, International
                                  Business Unit did not include supporting documentation.

Estimate of Travel                Eighty-eight percent (508 of 577) of the international travel
Costs                             requests approved by the Vice President, International
                                  Business Unit did not include an estimate of travel costs.



3
 Travelers are allowed to fly the more expensive business class if the duration of the overseas flight exceeds 10
hours. Travelers circumvent the 10-hour rule by scheduling indirect flights to their overseas destination.

                                                          4
                                               Restricted Information
International Travel Process                                                       RG-MA-99-007



                               While we did not calculate the cost of the travel associated
                               with the 577 travel requests, we noted that international
                               travel costs were over $2 million for the 1,111 international
                               travel vouchers processed between September 12, 1998
                               through June 18, 1999.

                               The 577 international travel requests did include a
                               statement of the purpose for the trip, the expected benefit to
                               the Postal Service, and a travel schedule.

Suggestion 	                   We suggest that the Vice President, International Business
                               Unit ensure that international travel requests include all
                               information required by Postal Service Handbook F-15
                               before deciding whether to approve the travel requests.


Summary of                     The Vice President, International Business Unit, concurred
Management’s                   with our suggestion. The Vice President stated they would
Comments                       reinforce the existing international travel requirements.
                               Additionally, they plan to work with USPS Finance to ensure
                               that the travel regulations and guidelines meet the current
                               needs of the Postal Service. The full text of the comments
                               is at Appendix C.

Evaluation of                  The actions implemented and planned, by the International
Management’s                   Business Unit, meet the intent of our suggestion.
Comments

                               We appreciate the cooperation and courtesies provided by
                               your staff during the review. If you have any questions,
                               please contact me at (703) 248-2300.



                               Sylvia L. Owens
                               Assistant Inspector General
                                for Revenue/Cost Containment

                               cc: 	 Allen R. Kane
                                     Alan B. Kiel
                                     John R. Gunnels




                                                   5
                                        Restricted Information
International Travel Process                                                 RG-MA-99-007



                                       Appendix A



Table 1 shows the Postal Service organizations that have requested travel from
September 12, 1998 through June 18, 1999. One-third of the requests were from the
International Business Unit. Table 1 does not include Postal Service international travel
to Mexico and Canada. The table also does not include audit/investigative travel by the
Inspection Service.

                 Table 1. USPS Organizations Requesting Travel

                   USPS Organization          Travel         Percentage
                                             Requests
             International Business Unit       192             33.3%
             Inspection Service                132             22.9%
             Marketing                         103             17.9%
             Engineering                         43             7.5%
             Finance                             26             4.5%
             Information Systems                 16             2.8%
             Operations Planning                 15             2.6%
             Consumer Advocate                   10             1.7%
             Purchasing                           9             1.6%
             General Counsel                      6             1.0%
             Great Lakes Area Office              5             0.9%
             Operations Support                   5             0.9%
             Other                                4             0.7%
             Facilities                           3             0.5%
             Human Resources                      3             0.5%
             Operations                           2             0.3%
             Customer Relations                   1             0.2%
             Field Operations Support             1             0.2%
             Strategic Planning                   1             0.2%
             Totals:                           577




                                               6                                Appendix A
                                    Restricted Information
International Travel Process                                                 RG-MA-99-007




Table 2 shows the fiscal year 1999 travel destinations by country or region. Overall,
European countries were the top travel destination representing 402, or 68 percent, of
the 577 requests. South and Central American countries were second with 74 requests,
followed by Asia (60 requests), Australia and Pacific area (50 requests), and Africa with
seven requests.

                               Table 2. Travel Destinations


                     Destination                 Number of Requests
            Germany                                     86
            Switzerland                                 72
            Belgium                                     63
            France                                      51
            England                                     51
            Caribbean                                   31
            Japan                                       22
            Brazil                                      20
            China                                       19
            Italy                                       16
            Australia                                   16
            Ireland                                     14
            Palua                                       11
            Denmark                                     11
            Thailand                                      9
            Portugal                                      9
            New Zealand                                   8
            Micronesia                                    8
            Central America                               8
            Pacific Theater*                              7
            Finland                                       6
            Sweden                                        5
            South Africa                                  5
            Peru                                          5
            Hungary                                       5
            Europe*                                       5
            Argentina                                     5
            Korea                                         4
            Austria                                       3




                                                7                              Appendix A
                                     Restricted Information
International Travel Process                                         RG-MA-99-007




                         Table 2. Travel Destinations (Cont’d) 


            Uruguay
                                           2
            Spain 
                                            2
            South America* 
                                   2
            Singapore 
                                        2
            Russia 
                                           2
            Philippines 
                                      2
            Vietnam 
                                          1
            Venezuela 
                                        1
            Poland
                                            1
            Malaysia
                                          1
            Ghana 
                                            1
            Cote D’Ivoire
                                     1
            Total Number Requests** 
                        593 


* Multiple destinations to one area
** Exceeds 577 because of instances where one trip was to multiple
   destinations.




                                               8                       Appendix A
                                    Restricted Information
International Travel Process                                                  RG-MA-99-007




                                       Appendix B


Table 3 shows the Postal Service international travel costs from fiscal years 1995 to
1999. The international travel costs for fiscal year 1999 do not include accounting costs
for the period June 19 through September 10, 1999. However, postal officials estimated
international travel costs for those periods would not exceed $500,000. If so, fiscal year
1999 international travel costs will have declined by about $1.5 million from fiscal year
1998. Personnel at the International Business Unit attribute this decline to overall cost
savings efforts within the Postal Service.


      Table 3. USPS International Travel Costs Fiscal Year 95 – 99*


         Fiscal Year       International Travel     Dollar Change   Percent
                                                                    Change
              1995              $874,357                    -            -
              1996              2,075,572              $1,201,215     137%
              1997              3,071,045                 995,473     48%
              1998              4,216,254               1,145,209      37%
              1999*             2,186,423                   -            -


                       Fiscal year 1999 costs are through June 18, 1999




                                                  9                             Appendix B
                                       Restricted Information
International Travel Process                            RG-MA-99-007




                                         10               Appendix C
                               Restricted Information
International Travel Process                            RG-MA-99-007



 Major Contributors to
 This Report




                                         11
                               Restricted Information
